Supreme Court, U.S.
FILED

AUG 2 0 2021
OFFICE OF THE CLERK

Tin

T5~Be~Assianed

21-5600
IN THE
SUPREME COURT OF THE UNITED STATES

Linda Hardison
(Your Name)

— PETITIONER

vs.
United States

— RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Seventh Cirnnit________________
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Linda Haridson
(Your Name)
1333 Old Spanish Trail Suifp O - Rnv 197

(Address)
Houston TX 77054
(City, State, Zip Code)
415-218-5507
(Phone Number)

QUESTION(S) PRESENTED
CAN THE DISTRICT COURT AND THE APPEALS' COURT OVERLOOK A BLATANT
ERROR OF LAW WHEN THE PETITIONER PRESENTED ALL DOCUMENTARY
EVIDENCE AND DECLARATIONS OF LAW TO PROVE HER ACTUAL INNOCENCE
AND BOTH COURTS REFUSE TO ADJUDICATE THE CLAIM CORRECTLY?

9

i

i-L.

LIST OF PARTIES

[XI All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

United States v. Smith. 107 F.3d 13 (7th Cir, 1997).

ill,

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-5

REASONS FOR GRANTING THE WRIT

6-9

CONCLUSION

10

INDEX TO APPENDICES

APPENDIX A United States Court of Appeals for the Seventh Circuit.

APPENDIX B United States District Court for the Northern District of Illinois.

APPENDIX C O’Neal's letter to the United States Attorney's Office.

APPENDIX D Judge Conlon's order granting a new trial.
APPENDIX E Cargle/Smith Tape Recording.

APPENDIX F Motion to Compel Plea Agreement by Cargle's Attorney.
APPENDIX G Affidavit of Kurt Cargle.
APPENDIX H First Affidavit of Cl - Ronald O'Neal.
APPENDIX I Second Affidavit of Cl - Ronald O'Neal.
APPENDIX J Order for Hardison's section 2255.

LV,

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Kuhlmann v. Wilson, supra. 477 US, 436, @454, fn. 17 (1986)

7

Schlup v. Delo. 413 U.S. 298, 314-15 (1995)

9

STATUTES AND RULES
28 U.S.C. sec 1651

4

OTHER

V.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ xl For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

to

[ ] reported at __________________ _____________________. or)
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
The opinion of the United States district court appears at Appendix B
the petition and is
[ ] reported at
; or,
[>Q has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was June 14. 2021
[X1No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
------------- ;_____________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Page No.
Due Process

6,7,8

3,

STATEMENT-QETHE-GASE

1)

Petitioner Hardison was released from custody in 2007 after doing 188
months for a crime she was innocent of. Therefore, in 2015, Hardison was
contacted by her codefendant Eugene Washington when he was released in late
2015. However, Washington, who was living in California, was having a difficult
time adjusting back to society after doing 21 years in prison. Accordingly,
Hardison lost contact with Washington until late 2018.

2)

In 2019, Washington and Hardison were back in touch. During the phone
conversations on several occasions, Washington informed Hardison that he had
“documentary evidence” that proved Hardison’s innocence.see Appendices C
through J.
Washington explained to Hardison that the documentary evidence he possed
was the same evidence Hardison presented on her 2255 back in 2000, but Judge
Conlon refused to adjudicate the evidence correctly.

3)

Hardison then prepared a Writ of Error Coram Nobis under 28 U.S.C. sec
1651. The Writ of Error was then filed in the United States District Court for the
Northern District of Illinois on January 15th, 2020.
Judge Gettleman had taken Judge Conlon’s case load and he adjudicated the
Writ. After ordering the Government to respond and then reviewing the evidence
under Appendices C through J. Judge Gettleman denied Hardison’s claim, See
Appendix B, order from the District Court.

H.

4)----- htardiso£Ltben_sought an appeal to the United States Court of Appeals for the
Seventh Circuit in December of 2020. The right to appeal was granted eight
months after the Judgement on April 20, 2020.

5)

Hardison’s appeal was submitted to the Seventh Circuit in March of 2021.

However, on June 14th, 2021, the Seventh Circuit denied Hardison’s appeal. See
Appendix A. order from the Seventh Circuit Court of Appeals. Hardison now seeks
for this Honorable Court to review her Writ of Certiorari in order to correct a
Miscarriage of Justice.

S«

REASOJvJJEOK_GRANJ_INGJEHE_BETJTJOW

Hardison presents that the criminal case she was involved with was [no] ordinary
criminal case. For the case was tried 3 times before the Court of the Honorable
Susan B. Conlon. In addition, the Government’s main witness, Cl - Ronald O’Neal,
changed portions] of his trial testimony, which then justified the Court to grant a new
trial. See Appendices C and D. Thus, O’Neal lied about pertinent facts as they
related to the jury’s verdict.

In fact, before the 2nd trial commenced, Appendix E surfaced. Appendix E has
“never” been adjudicated by [ANY] court to this very day. For after her Honor
listened to the tap along with Counsels] for the defense, Her Honor denied
Appendix E's evidentiary value, and refused to allow the tape into evidence. The
defendants] on trial were not privy to hear the tape recording under Appendix E
before the court.

Hardison presents that by Her Honor overlooking Appendix E. this clearly denied
her a fair and impartial trial under Due Process. In addition, to effectuate the “Truth”
of Appendix E, Hardison presents a motion filed by Cargle’s attorney that verifies the
truth in Appendix E. which is Appendix F.

For Appendix F discusses the exchange of “colloquy” between Cargle and one of
the Asst. U. S. Attorneys before the start of the First Trial. See Appendix F.
numbered paragraphs 7 through 13. In paraphrasing Cargle, he is stating to the
Ass U.S. Attorney how they ordered Smith to call him to their testimonies straight,
See Appendix F. paragraphs 7 through 13.

6.

-----U.aidlsoiLBresents that when she presented her 2255 in 2000 Judge Conlon
failed to recognize the evidence in Appendices E and F. Though Hardison presented
an Actual Innocence claim, her Honcr refused to adjudicate [all] evidence pertaining
to Hardison’s Due Process of Law relating to the Asst. U. S. Attorneys ordering
subordination of perjury. See Kuhlmann v. Wilson, supra. 477 US, 436, @ 454, fn.
17 (1986) in part:

The prisoner must “show a fair probability that, in light of all the evidence,
including that alleged to have been illegally admitted (but with due regard
to any unreliability of it) and evidence tenable claimed to have been
wrongly excluded or to have become available only after trial, the trier of
the facts would have entertained a reasonable doubt of his guilt.”

After Judge Conlon reviewed Appendix C. she then "granted” a mistrial.
However, to make matters worse, before the start of the Second Trial Appendix E
surfaced as stated before. Moreover, after reviewing Appendix E before the start of the
Second Trial, Judge Conlon determined that Appendix E had [no] evidentiary value and
informed trial counsels] from making [ANY] reference to it the during the Second Trial.

Furthermore, Hardison presents that O’Neal seemed to change his testimony at
will. For Appendix C is the first time he conjured this act. And Appendix C elucidates
where O’Neal admits he “lied” in order to “implicate another coconspirator who had just
been arrested in Los Angeles.” (Benge Adams). Hardison present that this occurred at
the end of the First Trial during jury deliberations.

Accordingly, O’Neal’s second recantation of testimony was in 1999. Hardison
articulates that Washington was the one who informed her that when he went to mail
call in early 1999 while in prison, the Government’s main witness had sent him

7.

Appendices Hand I, where he, O’Neal, some 5 year later, “recants” [again] a large
portion of his trial testimony. However, the record shows that this was not the first time
that O’Neal did this.See Appendix C. See Due Process of law.

Hardison's proclivity, with clarity and force, deduce that Asst - U.S. Attorneys
“ordered” his initial recantation of testimony. Hardison’s “proof of this act is Appendices
E and F. For Appendices E and F effectuate that the Asst. U.S. Attorneys got their
hands caught in the cookie jar. And the court must remember that this act of “ordering”
subordination of perjury between Cargle and Smith occurred [prior] to the First Trial and
the defense was never informed of this.

The Exegesis of violations herein initially impressed favorably upon the
prosecution’s case, but as sequential events unfolded, this favorable impression
“shifted” as the quality of testimony lacked proof and fitness to induce the conviction of
[All] defendants. For at the end of the Second Trial Charles Davis was acquitted. And
at the end of the Third Trial Ladwig Jones was acquitted, the alleged supplier.

And Hardison presents that Appendices H and I. the 2 affidavits O’Neal sent
Washington back in 1999 is his second “recantation’ of testimony.

Therefore, Hardison, when she filed her 2255 back in 2000, she presented
Appendices C through I as a collective body of evidence. This evidence engenders
“multiple Due Process” violations that intensified the collapse of truth in the
prosecution’s case. This collapse of truth grew stronger and more resolute from
proceeding to proceeding, reaching its apex in the Third Trial when Ladwig Jones, the
alleged supplier, was acquitted.

8.

--------- Hardison dictums that desperate doubts about the corroboration of government
witnesses are tenably in the body of the appendices listed. Therefore, the prosecution’s
case would have collapsed entirely had the “truth” come out about the Government and
their witnesses and their actions. See Schulp v. Delo 413 U.S. 298, 314-15(1995).

In addition, Hardison wants the Honorable Supreme Court to know that when she
filed her 2255 back in 2000, Appendices C through I were attached to Hardison’s claim.
But when Her Honor adjudicated the evidence, she failed to apply the proper procedure
as given by the Supreme Court. See Appendix I. the order of the 2255 from 2000.
Therefore, the evidence attached hereto has never been adjudicated properly to show
Hardison’s Actual Innocence. Hardison request that the Honorable Supreme Court [not]
make the same mistakes made by the District Court and Appeals Court. Hardison
“prays” for justice!

9.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

10.

